                                                  NATIONAL SCIENCE FOUNDAlION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGA nONS

                                           CLOSEOUT MEMORANDUM

Case Number: 105100066                                                                       Page"l of 1
                i,




        The National Science Foundation Office of Inspector General conducted a proactive review of
        USP/LtSI grants. As part of the review, we examined the USP award l issued to the subject
        grantee institution2 •

        Our pr9active review of the grant jacket identified a number of issues of concern with th~ grantee
        institution, but also determined that NSF is aggressively addressing each of them. Interview of
        the Program Director3 and review of journal entries and communications between NSF and the
        grante~;demonstrate that the identified issues are well along the way to resolution.

        Based on the above, active investigative involvement does not seem warranted. Nevertheless, in
        an effont to ensure the identified prqblems are corrected, this case has been referred to audit with
        a recOIwnendation that the subject grantee institution be included in a future audit plan.

        Based upon the above, this case is closed without further action.




NSF Ola Form 2 (1lI02)' I
